<html>
<title> - THE LATEST DEVELOPMENTS IN COMBATING ONLINE SEX TRAFFICKING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
      THE LATEST DEVELOPMENTS IN COMBATING ONLINE SEX TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2017

                               __________

                           Serial No. 115-84
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                            _________ 
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-792 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     2
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
    Prepared statement...........................................     5
Hon. Susan W. Brooks, a Representative in Congress from the State 
  of Indiana, opening statement..................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    75
Hon. David B. McKinley, a Representative in Congress from the 
  State of West Virginia, prepared statement.....................    75

                               Witnesses

Hon. Ann Wagner, a Representative in Congress from the State of 
  Missouri.......................................................     6
    Prepared statement...........................................     9
Yiota G. Souras, Senior Vice President and General Counsel, 
  National Center for Missing and Exploited Children.............    17
    Prepared statement...........................................    20
Derri Smith, Chief Executive Officer, End Slavery Tennessee......    29
    Prepared statement...........................................    31
Russ Winkler, Special Agent in Charge, Tennessee Bureau of 
  Investigation..................................................    35
    Prepared statement...........................................    37
Eric Goldman, Professor, Santa Clara University School of Law....    44
    Prepared statement...........................................    46

                           Submitted Material

H.R. 1865, the Allow States and Victims to Fight Online Sex 
  Trafficking Act of 2017, submitted by Mrs. Blackburn...........    76
Letter of November 27, 2017, from Alexandra F. Levy, University 
  of Notre Dame Law School, to Mrs. Blackburn and Mr. Doyle, 
  submitted by Mr. Doyle.........................................    82
Response to Online Sex Trafficking and the Communications Decency 
  Act hearing, Shared Hope International, et al., October 3, 
  2017, submitted by Mrs. Blackburn..............................    84
Letter of November 27, 2017, from Shared Hope International, et 
  al., to Mrs. Blackburn, submitted by Mrs. Blackburn............    93
Article, ``Wyden blocks bill to stop online sex trafficking,'' by 
  Rebecca Bender, The Register-Guard, November 30, 2017, 
  submitted by Mrs. Blackburn....................................    95
Letter of April 3, 2012, from Mrs. Blackburn and Hon. Carolyn B. 
  Maloney to Larry Page, Chief Executive Officer, Google, Inc., 
  submitted by Mrs. Blackburn....................................    99
Letter of November 30. 2017, from Chris Cox, Outside Counsel, 
  NetChoice, to Mrs. Blackburn and Mr. Doyle, submitted by Mrs. 
  Blackburn......................................................   101
Article, ``Congress must stop sex trafficking on the internet,'' 
  by Mrs. Blackburn, The Tennessean, November 29, 2017, submitted 
  by Mrs. Blackburn..............................................   121


      THE LATEST DEVELOPMENTS IN COMBATING ONLINE SEX TRAFFICKING

                              ----------                              


                      THURSDAY, NOVEMBER 30, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:22 p.m., in 
Room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Latta, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Walters, Costello, Doyle, Welch, Loebsack, 
Ruiz, Rush, Eshoo, Engel, Butterfield, Matsui, and McNerney.
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Ray Baum, Staff Director; Kelly 
Collins, Staff Assistant; Robin Colwell, Chief Counsel, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Adam Fromm, Director of 
Outreach and Coalitions; Gene Fullano, Detailee, Communications 
and Technology; Elena Hernandez, Press Secretary; Paul Jackson, 
Professional Staff Member, Digital Commerce and Consumer 
Protection; Tim Kurth, Senior Professional Staff Member, 
Communications and Technology; Lauren McCarty, Counsel, 
Communications and Technology; Alex Miller, Video Production 
Aide and Press Assistant; Evan Viau, Legislative Clerk, 
Communications and Technology; Jessica Wilkerson, Professional 
Staff Member, Oversight and Investigations; Everett Winnick, 
Director of Information Technology; David Goldman, Minority 
Chief Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; Dan Miller, Minority Policy Analyst; and Tim 
Robinson, Minority Chief Counsel.
    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order.
    I am sorry that we are a few minutes late in beginning, but 
we have this thing we have to do around here called votes. And 
we did have a vote on the floor and, in the middle of it, a 
colloquy concerning our schedule.
    At this time, I recognize myself for 5 minutes for an 
opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Good afternoon, and a warm welcome to each of our witnesses 
who are going to join us today. We are here on what has turned 
out to be an absolutely gorgeous day in Washington, DC, but we 
are here to talk about a very ugly, sordid subject, and that is 
online sex trafficking or, as the name of Ms. Smith's 
organization describes it more bluntly, slavery.
    As the stings and headlines continue to proliferate, those 
who thought that slavery was something that could never happen 
in 2017 America have had to confront the terrifying reality 
that not only is it happening, it is on the rise. And it is on 
the rise in large part because the internet, the technological 
masterpiece of our time, has made it much easier to do.
    In both the House and the Senate this year, we are facing 
up to the challenge with a long-overdue conversation, driving 
toward effective action. With this hearing, it is my hope that 
the Communications and Technology Subcommittee, with our 
particular focus, will add some valuable perspective about 
exactly what is going wrong and what is going right on the tech 
side as the lowest of the low harness the power of the internet 
to enslave and exploit our children.
    I am so very pleased that Ms. Smith and Mr. Winkler have 
been able to join us today to tell their stories of how 
Tennessee has been impacted by this abhorrent crime. Like so 
many of the districts that my colleagues represent, our home 
has been invaded by criminals luring in vulnerable women and 
children and forcing them into a life of sex slavery and 
unspeakable abuse.
    I know that you both share my deep sadness and absolute 
outrage that this is happening in our backyard. And I cannot 
thank you enough for rescuing the victims, then helping them 
heal while seeking justice for their abusers. You are doing a 
superlative job.
    For the fifth year in a row--get this--Tennessee received 
an A on its report card in the Protected Innocence Challenge, a 
comprehensive annual study of existing State laws. And this is 
compiled by Shared Hope International. The challenge produces 
State report cards that rate how effectively each State 
responds to the crime of domestic minor sex trafficking.
    After 4 years of straight A's, Tennessee outdid itself this 
year by leading the rankings, number one in the country. What a 
testimony to the partnership between Tennessee law enforcement 
and victim advocates that you have built and grown together 
over the years. We are honored that you are taking time away.
    The legislative debate this year has focused on amendments 
to section 230 of the Communications Decency Act, which law 
enforcement has consistently identified as a barrier preventing 
effective prosecution of online entities that facilitate 
trafficking and adequate recourse for trafficking victims.
    Today, we welcome my colleague and dear friend, Ann Wagner, 
who is leading this charge in the House. I look forward to 
hearing her testimony about her efforts to find an effective 
approach to attack and defeat this problem. She has been a 
passionate and tireless advocate, and I am proud to be a 
cosponsor of her bill.
    I also want to welcome and we look forward to hearing the 
concerns and the perspective of Ms. Souras and Mr. Goldman as 
we consider next steps. With so many women and children waiting 
on us and counting on us, doing nothing is not an option.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good afternoon and a warm welcome to all of our witnesses. 
We have come here together on this beautiful afternoon to talk 
about a very ugly subject: online sex trafficking, or as the 
name of Ms. Smith's organization describes it more bluntly, 
slavery. As the stings and the headlines continue to 
proliferate, those who thought that slavery was something that 
could never happen in 2017 America, have had to confront the 
terrifying reality that not only is it happening, it is on the 
rise. And it is on the rise in large part because the Internet, 
the technological masterpiece of our time, has made it much, 
much easier to do. In both the House and the Senate this year, 
we are facing up to the challenge with a long overdue 
conversation driving toward effective action. With this 
hearing, it is my hope that the Communications and Technology 
Subcommittee, with our particular focus, will add some valuable 
perspective about exactly what is going wrong and what is going 
right on the tech side as the lowest of the low harness the 
power of the Internet to enslave and exploit our children.
    I am so very pleased that Ms. Smith and Mr. Winkle have 
been able to join us today to tell their stories of how 
Tennessee has been impacted by this abhorrent crime. Like so 
many of the districts that my colleagues here represent, our 
home has been invaded by criminals luring in vulnerable women 
and children, and forcing them into a life of sex slavery and 
unspeakable abuse. I know that you both share my deep sadness 
and outrage that this is happening in our own backyard, and I 
cannot thank you enough for rescuing these victims, then 
helping them heal while seeking justice for the abusers. You 
are truly doing the Lord's work.
    And you are doing a superlative job of it. For the fifth 
year in a row, Tennessee received an ``A'' on its report card 
in the Protected Innocence Challenge, a comprehensive annual 
study of existing State laws conducted by Shared Hope 
International. The challenge produces State report cards that 
rate how effectively each State responds to the crime of 
domestic minor sex trafficking. After four years of straight 
A's, Tennessee outdid itself this year by leading the rankings, 
#1 in the country. What a testimony to the partnership between 
Tennessee law enforcement and victim advocates that you have 
built and grown together over the years. We are honored that 
you would take time away from your important work to give us 
the latest perspective from the front lines.
    The legislative debate this year has focused on amendments 
to section 230 of the Communications Decency Act, which law 
enforcement has consistently identified as a barrier preventing 
effective prosecution of online entities that facilitate 
trafficking, and adequate recourse for trafficking victims. 
Today we welcome my colleague and dear friend Mrs. Wagner, who 
has led the charge in the House. I look forward to hearing her 
testimony about her efforts to find an effective approach to 
attack this problem we are all facing. She has been a 
passionate and tireless advocate, and I am proud to be a 
cosponsor of her bill. And I also look forward to hearing the 
perspectives and concerns of Ms. Souras and Mr. Goldman as we 
consider our next step. With so many women and children waiting 
on us and counting on us, standing still is not an option.

    Mrs. Blackburn. At this time, I yield back my time, and I 
recognize Mr. Doyle for 5 minutes.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this 
important hearing.
    And thank you to the witnesses for appearing before us 
today. Human trafficking in all its forms and, in particular, 
sexual trafficking of children and adults is an abhorrent 
crime. I want to thank the witnesses here today from End 
Slavery Tennessee, the National Center for Missing and 
Exploited Children, and the Tennessee Bureau of Investigation. 
This is hard work that you all do, and I know that it carries a 
heavy burden. For my part, I want to thank you for your efforts 
and the efforts of your organizations. Be assured this is an 
issue of great concern to all of us.
    I also want to thank Representative Wagner for testifying 
before us today. I understand that this is an issue that you 
have been working on for some time and that the SAVE Act that 
you wrote, and which has become law, is starting to be used to 
combat online sex trafficking.
    I also understand that, in reference to the bill before us 
today, you are working with Chairman Goodlatte on an amendment 
in the nature of a substitute to your bill and hope that it 
will be marked up in the Judiciary Committee. I am hopeful that 
you will be able to move your amended bill out of committee and 
before the full House for a vote.
    I also want to acknowledge the good work being done by 
Senators McCaskill and Portman and the Senate's Permanent 
Subcommittee on Investigations in the investigation and report 
they released on Backpage.com. This report is truly 
frightening. The report alleges that Backpage knowingly 
facilitated child sex trafficking.
    I am deeply concerned about emails sent by Backpage 
moderators seeking to limit the number of ads they were 
reporting to NCMEC on a monthly basis. In addition, according 
to the report, Backpage repeatedly edited and altered ads by 
deleting words, phrases, and images that would indicate child 
sex trafficking without reporting those ads to NCMEC or other 
authorities. Again, according to this report, these edits were 
done for the express purpose of concealing the illegal nature 
of these activities.
    Backpage went so far as to deploy software that 
automatically deleted terms from ads before publication, words 
such as ``AMBER Alert,'' ``rape,'' ``young,'' and ``fresh.'' 
This filter was apparently deployed for the purpose of 
concealing the true nature of the transactions that were 
occurring on the site.
    The report goes on to say that, by Backpage's own internal 
estimates, they were editing between 70 to 80 percent of the 
ads in the adult section of their site.
    Backpage would go on to start rejecting ads that contained 
these words, but then they would do so with a popup that would 
include explicit instructions for advertisers as to what the 
offending word or phrase was and how they could repost their ad 
to get around Backpage's filters.
    Backpage used similar techniques when advertisers posted 
ads identifying people as under 18, simply instructing users to 
change the posted age in order for the ad to be posted.
    To my mind, this report indicates a vast criminal 
enterprise. I am heartened by reports that there are 
potentially multiple Federal investigations using insights from 
the Senate report and an impaneled grand jury. My hope is that 
justice can be done.
    Madam Chair, I thank you for this hearing, and I yield 
back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you madam chairman for holding this important 
hearing, and thank you to the witnesses for appearing before us 
today.
    Human trafficking in all its forms--and in particular 
sexual trafficking of children and adults--is an abhorrent 
crime. I want to thank the witnesses here today from End 
Slavery Tennessee, the National Center for Missing and 
Exploited Children, and the Tennessee Bureau of Investigation. 
This is hard work that you all do, and I know it carries a 
heavy burden. For my part, I want to thank you for your efforts 
and the efforts of your organizations. This is an issue of 
great concern to us all.
    I'd also like to thank Representative Wagner for testifying 
before us today. I understand that this is an issue that you 
have been working on for some time--and that the SAVE Act that 
you wrote and which has become law is starting to be used to 
combat online sex trafficking.
    I also understand that in reference to the bill before us 
today, you are working with Chairman Goodlatte on an Amendment 
in the Nature of a Substitute to your bill and that you hope it 
will be marked up in Judiciary Committee. I am hopeful that you 
will be able to move your amended bill out of committee and 
before the full House for a vote.
    I also want to acknowledge the good work done by Senators 
McCaskill and Portman and the Senate's Permanent Subcommittee 
on Investigations in the investigation and the report they 
released on Backpage.com. The report is truly frightening. The 
report alleges that Backpage knowingly facilitated child sex 
trafficking.
    I am deeply concerned about emails sent by Backpage 
moderators seeking to limit the number of ads they were 
reporting to NIC-MEC on a monthly basis and efforts by the 
company. In addition, according to the report Backpage 
repeatedly edited and altered ads by deleting words, phrases, 
and images that would indicate child sex trafficking without 
reporting those ads to NIC-MEC or other authorities. Again 
according to this report, these edits were done for the express 
purpose of concealing the illegal nature of these activities. 
Backpage went so far as to deploy software that automatically 
deleted terms from ads before publication, words such as amber 
alert, rape, young, and fresh. This filter was apparently 
deployed for the purpose of concealing the true nature of the 
transactions that were occurring on the site.
    The report goes on to say that by Backpage's own internal 
estimates they were editing between 70-80 percent of ads in the 
Adult section of their site.
    Backpage would go on to start rejecting ads that contained 
these words, but do so with a pop-up that would include 
explicit instructions for advertisers as to what the offending 
word or phrase was and how to repost their ad to get around 
Backpage's filters. Backpage used similar techniques when 
advertisers posted ads identifying people as under 18, simply 
instructing users to change the posted age in order for the ad 
to be posted.
    To my mind this report indicates a vast criminal 
enterprise. I am heartened by reports that there are 
potentially multiple Federal investigations using insights from 
the Senate report and an empaneled grand jury.
    My hope is that justice can be done.

    Mrs. Blackburn. The gentleman yields back.
    Ms. Brooks, you are recognized. We will see if Chairman 
Walden makes it, but you are recognized for your comments.

OPENING STATEMENT OF HON. SUSAN W. BROOKS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mrs. Brooks. Thank you, Madam Chairwoman.
    And I am very, very pleased to see our colleague and a 
leader in the House of Representatives, Representative Wagner, 
who, since we came in together 5 years ago, has been a strong, 
strong voice fighting for the victims and educating the 
American people about Backpage and other avenues of sex 
trafficking.
    I just want to take a moment to commend the State of 
Indiana. I was involved as a United States attorney from 2001 
to 2007, and, during that time, the Bush administration put a 
huge focus on exploitation and on child exploitation. And we 
started an effort called IPATH now, which is about protection 
against human trafficking. And it brings together law 
enforcement, victim services; it puts in place protocols.
    But I will tell you that the criminals and the perpetrators 
are always trying to stay one step ahead. They are always 
trying to find ways to exploit children, women, and others in 
order to satisfy their sexual desires. And it is very, very 
difficult work. Law enforcement work around the world to find 
victims and the webs that they have created. And the 
perpetrators, which coordinate around the world, are something 
that we must continue to pursue with every avenue we possibly 
can.
    And, finally, I just want to focus on the victims. The 
victims of this type of sexual exploitation, sexual 
trafficking, can be found in every district in our country, 
from urban areas to rural areas to suburban areas. And I think 
people are often shocked when they read in our papers or read 
about the victims. And we must make sure that we are there for 
the victims.
    So I just want to commend Ann Wagner and so many Members on 
both sides of the aisle who have stepped up to really lead the 
charge and try and say that we cannot allow this type of human 
slavery in this day and age to continue and we must continue to 
fight it. And I just want to thank my colleague from Missouri 
for being a leader.
    And I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Is there any other Member seeking recognition?
    No other Member seeking recognition, at this time I want to 
recognize Mr. Pallone--who is not here--for his 5 minutes.
    Any other Member seeking recognition?
    Mr. Doyle. Oh, Madam Chairman, I----
    Mrs. Blackburn. Mr. Doyle.
    Mr. Doyle. Thank you. I forgot, I need to ask unanimous 
consent to enter into the record a letter to yourself and 
myself from Professor Alexander Levy of the University of Notre 
Dame Law School.
    Mrs. Blackburn. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you.
    Mrs. Blackburn. All right. At this point, our first witness 
for today's panel will include Mrs. Ann Wagner, representing 
Missouri's Second Congressional District, who will give opening 
remarks regarding her efforts on the issue.
    Mrs. Wagner, you are recognized for 5 minutes.

STATEMENT OF HON. ANN WAGNER, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MISSOURI

    Mrs. Wagner. I thank you, Madam Chairman and Ranking Member 
Doyle and colleagues, for hosting this committee hearing today 
and for allowing me to give some opening remarks.
    I appreciate your commitment to addressing online 
trafficking and especially appreciate that so many members of 
this subcommittee have publicly cosponsored H.R. 1865. Stopping 
the victimization of America's children and adults online is my 
top priority in Congress, and I know I have an ally in Chairman 
Blackburn. I also appreciate subcommittee members Adam 
Kinzinger and Yvette Clarke for being original cosponsors of my 
bill.
    My first major piece of legislation concerning online 
trafficking was the SAVE Act, which became law in 2015. The 
SAVE Act was a first step in addressing Federal-level 
prosecutions of websites. Unfortunately, it has not yet been 
used, presumably because the mens rea standard in the 
legislation, knowingly, is too high. Moreover, the SAVE Act was 
federally focused, and it did not enable States and local 
prosecutors to protect their communities.
    I have learned a lot since then. And this is why, over a 
year and a half ago, I began working on H.R. 1865, the Allow 
States and Victims to Fight Online Sex Trafficking Act, or 
FOSTA. The bill is written for victims, not only because it 
would allow victims to pursue civil justice but because it 
would empower local prosecutors to take down websites that 
facilitate trafficking before they ever reach the size or the 
scope of Backpage.com.
    The House understands that enabling vigorous criminal 
enforcement is not just important but mandatory in any 
legislation we pass. This is why over 170 of my colleagues 
cosponsored FOSTA when I personally explained to them how 
websites can perpetuate modern-day slavery with impunity.
    Why are these websites able to sell our children? Because 
judges have ruled that section 230 prevents websites that 
exploit the most vulnerable members of our society from being 
held accountable. Congress' response to these rulings must be 
patently clear. Section 230 of the Communications Decency Act 
was never intended to allow businesses to commit crimes online 
that they could never commit offline. When Congress passed the 
Communications Decency Act in 1996, it explicitly acted to 
prevent the internet from becoming a red light district, and it 
clearly did not believe that rape was a prerequisite of a free 
and open internet.
    What Congress cannot do is pass a bill that amends section 
230 but is so narrow that it could only be used to prosecute 
Backpage.com.
    Let me be plain: I support the Senate's recent action on my 
legislative proposal. I appreciate the complicated strategic 
environment that Senators Blumenthal and Portman and others are 
operating in. And I believe that it is a step in the right 
direction. But the Senate bill is not the full solution.
    Backpage.com is currently, as Mr. Doyle stated, the largest 
of the websites that facilitate trafficking in America, but it 
is already under Federal investigation, and it is just a small, 
small piece--small piece--of this growing criminal ecosystem. 
Hundreds--and let me underscore--hundreds of advertising sites 
have jumped into the marketplace of illegal sex. For instance, 
Eros serves as the high-end market. Escorts In College 
advertises women close to and under the age of consent. And 
Massage Troll is, sadly, popular in my own district.
    Thanks to Senator Portman's investigation, a wealth of 
evidence against Backpage.com has been discovered over the past 
year. And while it may now be possible, though still incredibly 
difficult, to prove that Backpage.com knowingly assisted in sex 
trafficking violations, it is not possible to gather this level 
of evidence for the hundreds of other websites that are 
profiting from the sex trade.
    I have spoken with prosecutors across the country who have 
asked the House to pass a practical solution that will allow 
them to take predatory websites off the internet. And I am 
repeatedly told that any legislation that depends exclusively 
on the ``knowingly'' mens rea standard is merely a Washington, 
DC, feel-good exercise. Congress might pat itself on the back 
but will have accomplished little to prevent the sale of 
victims online.
    FOSTA is centered on the ``reckless disregard'' standard 
that prosecutors need to open cases on bad actor websites. And 
we must find a way to maintain a useful mens rea standard or, 
at the very least, not raise the very high bar that victims and 
prosecutors must already meet.
    If we are serious about helping victims, we must create 
laws that allow for a robust State and local criminal 
enforcement. Criminal enforcement means businesses will stay 
out of the illegal sex trade, fewer people will ever become 
victims, demand will be reduced, and, yes, civil suits will be 
easier to bring. The criminals who auction our children will be 
put behind bars.
    I believe, in closing, we can mark up a bipartisan House 
bill that will provide meaningful tools to prevent future 
victimization. And I look forward to working with you to pass a 
forward-facing--forward-facing--solution that will disrupt the 
online trafficking industry.
    I thank you, Madam Chairman, and I thank you all on the 
committee and my colleagues for allowing me to give these 
opening remarks.
    [The prepared statement of Mrs. Wagner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 
    
    Mrs. Blackburn. The gentlelady yields back.
    We thank you so much for your remarks and your well wishes 
that we will move forward.
    At this time, we will briefly recess long enough to put the 
new nameplates up, and we will welcome our panel to the table.
    [Recess.]
    Mrs. Blackburn. At this time, we welcome our second panel 
of witnesses: Yiota Souras, who is the senior VP and general 
counsel for the National Center for Missing and Exploited 
Children; Ms. Derri Smith, CEO of End Slavery Tennessee; Mr. 
Russ Winkler, assistant special agent in charge at the 
Tennessee Bureau of Investigation; and Mr. Eric Goldman, a 
professor at Santa Clara University School of Law.
    Welcome to each of you. We appreciate that you are here 
today.
    We are going to begin our testimony with you, Ms. Souras.
    Each of you will have 5 minutes. I ask that you move the 
microphone to you, touch the button in the center so that you 
activate it. And at the end of your 5 minutes, we will begin 
the questioning portion of this hearing.
    Ms. Souras, you are recognized for 5 minutes.

   STATEMENTS OF YIOTA G. SOURAS, SENIOR VICE PRESIDENT AND 
  GENERAL COUNSEL, NATIONAL CENTER FOR MISSING AND EXPLOITED 
  CHILDREN; DERRI SMITH, CHIEF EXECUTIVE OFFICER, END SLAVERY 
  TENNESSEE; RUSS WINKLER, SPECIAL AGENT IN CHARGE, TENNESSEE 
  BUREAU OF INVESTIGATION; AND ERIC GOLDMAN, PROFESSOR, SANTA 
                 CLARA UNIVERSITY SCHOOL OF LAW

                  STATEMENT OF YIOTA G. SOURAS

    Ms. Souras. Thank you.
    Chairman Blackburn, Ranking Member Doyle, and members of 
the committee, I am honored to be here today on behalf of the 
National Center for Missing and Exploited Children and to join 
this discussion to ensure that America's most vulnerable 
victims--children trafficked online for rape and sexual abuse--
have opportunities for justice against their traffickers, 
including those who participate in trafficking them online.
    I would like to thank Congresswoman Wagner for her 
longstanding dedication to child sex trafficking victims and 
her tireless work to create meaningful change for these 
survivors.
    As part of our work as the congressionally designated 
resource center on missing and exploited children, NCMEC 
receives approximately 9,800 reports of child sex trafficking 
every year. Over the past 5 years, 88 percent of these reports 
have involved a child being trafficked online. More than 74 of 
these reports from the public relate to an ad on Backpage.
    In recent years, we have learned an enormous amount about 
the complexity, ruthlessness, and profitability of the sale of 
children for sex online. But we have also seen courts struggle 
and fail to hold websites liable for facilitating sex 
trafficking. Today, we are at a crossroads on how best to 
proceed with legislation that combats this heinous crime.
    Courts have been able to find their way around the current 
application of the CDA, a statute that is over 21 years old and 
has created broad immunity, even for websites that support 
online child sex trafficking. These courts have called on 
Congress to clarify that all facilitators of online sex 
trafficking, including websites, are not legally protected.
    The House of Representatives and the Senate have worked on 
parallel tracks to develop bills that respond to the recent 
court decisions and reconcile the CDA with protections granted 
to victims under the Federal trafficking statute.
    We believe these bills address the specific legal barriers 
faced by child sex trafficking victims and coalesce around 
three legislative solutions: first, ensuring that State 
attorneys general have the authority to protect children in 
their own States and can bring criminal and civil actions 
against online entities that participate in sex trafficking; 
second, clarifying that sex trafficking victims can pursue 
civil remedies against everyone who participates in their 
trafficking, including websites; and, third, defining 
participation in a trafficking venture under Federal law as 
assisting, supporting, or facilitating sex trafficking.
    These broad legislative solutions specifically respond to 
what courts have called on Congress to do: provide children 
with access to justice and hold websites that facilitate sex 
trafficking responsible.
    NCMEC has assisted tens of thousands of children victimized 
by online sex trafficking. Behind the current debate about the 
particular details and standards within the legislative 
proposals are horrific experiences suffered by these children, 
who are defenseless against predators selling them for rape and 
sexual abuse online.
    NCMEC has worked closely with many sex trafficking victims 
whose cases have been dismissed due to the current broad 
interpretation of the CDA's immunity. We have witnessed the 
anguish of these children's recovery and have heard their 
hopelessness when courts dismiss their cases against websites 
that facilitated their trafficking.
    Victims who have been denied justice due to the CDA include 
a 14-year-old girl who was trafficked online for 2 years and 
advertised in sexually explicit poses; two 15-year-old girls, 
one who was raped over 1,000 times while trafficked online for 
just over a year and a second girl who was trafficked online 
for 2 years and sold to from 5 to 15 customers a day.
    Cases like this remind us of the ongoing suffering of 
victims and the urgency to move forward with current 
legislation that addresses past cases and has broad support 
from all key stakeholders, including the tech sector. NCMEC 
believes that legislation that includes the three core 
solutions outlined more fully in my written testimony will 
provide powerful tools to ensure the rights of child victims 
while protecting current law that encourages a robust internet.
    Chairman Blackburn, we couldn't agree with you more when 
you said in yesterday's Knox News that standing by idly is 
simply not an option. It is time that we hold companies 
accountable for their actions when they cross the line. We have 
been encouraged by the Senate's legislative progress on FOSTA, 
including the support of the Internet Association and Facebook, 
and are hopeful that under your leadership a similar path 
forward can be accomplished here in the House.
    In conclusion, we stand ready to assist the committee so 
that at the end of the day a bill can move expeditiously to the 
President's desk for enactment into law.
    Thank you.
    [The prepared statement of Ms. Souras follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mrs. Blackburn. The gentlelady yields back.
    Ms. Smith, you are recognized for 5 minutes.

                    STATEMENT OF DERRI SMITH

    Ms. Smith. Chairman Blackburn, Ranking Member Doyle, and 
members of the subcommittee, thank you for holding a hearing on 
this important topic. It is an honor to offer testimony on the 
impact of technology on human trafficking victims and 
survivors.
    The sexual exploitation perpetrated against women, men, 
boys, and girls in the commercial sex industry is found all 
across the internet. There is no place for a survivor of human 
trafficking to hide, because their victimization is already on 
display for all to see. The public victimization exponentially 
complicates the healing process.
    In the early days of this work, I met two girls from 
Atlanta. They were deceived by a girl they thought was their 
friend, held by child safety locks, and driven to Nashville by 
their trafficker. The trafficker got a hotel room, popped an ad 
up online, and was in business within half an hour. I was 
struck with how easy it was for him to sell those girls, as 
easy as advertising a bicycle or a car for sale. I was also 
struck with how quickly men arranged to have sex with these 
young people, as fast as ordering a pizza.
    In my years since, I have heard hundreds of variations of 
this story. At least three out of four of the survivors we 
serve were advertised online, and others were recruited and 
groomed online.
    Thankfully, an undercover detective was answering online 
ads that day posing as a john. He came to the girls' room and 
ended their exploitation within days of its start. They were 
the lucky ones.
    Once recovered, survivors still face threats from predators 
online who are waiting for them to surface. Especially in the 
early days of survivor recovery, our efforts to monitor online 
activity are more challenging than simply monitoring phone 
usage. There are temptations, dangers, and master manipulators 
ready to entice survivors back into exploitation.
    When the Tennessee Bureau of Investigation began 
proactively attacking human trafficking, they called End 
Slavery Tennessee for assistance. First, they wanted to 
understand the technology landscape and how it affected 
victims. How were victims recruited, bought, and sold across 
the internet? They needed firsthand information, and one of our 
young survivors was willing to tell them all she knew about 
being trafficked online.
    Secondly, the TBI wanted a more direct partnership during 
the undercover operations. That meant our survivor intervention 
specialist and case manager were on site during the operation. 
When TBI identified a victim, she met with End Slavery 
Tennessee staff. These young women were offered services and a 
way out of exploitation that very day. Some took the offer; 
others did not. But they did understand that the offer did not 
have an expiration date. The goal was to turn that scary and 
often negative interaction with law enforcement into one of 
hope.
    Once a survivor comes to End Slavery Tennessee, the plan of 
care often depends on drug addiction, prior victimization, 
length of time enslaved, and the age of the victim. We have 
provided care and services to survivors from the age of 4 to 
52, with a primary focus on minors through age 25, and in eight 
languages.
    In the past 5 years, we have gone from operating out of one 
10-by-10-foot office to a small suite of offices and now to a 
care center and three safe houses. We currently care for about 
190 survivors a year in Nashville and the surrounding area.
    Survivors need a plethora of wraparound services to meet 
their every need. Because trafficking victims suffer complex 
post-traumatic stress disorder, the restorative process can and 
usually does take years. To compound the trauma of trafficking, 
most victims were abused as children or suffer from a range of 
other adverse childhood experiences that made them vulnerable 
to exploitation in the first place. It is essential that an 
agency offer case management and a comprehensive array of 
specialized services until a survivor is ready to lead a 
productive and stable life.
    In Tennessee, we use a single-point-of-entry model, with 
one agency in each of the four regions of the State whose 
entire focus is on providing intensive case management and 
restoration of victims. Together, we form the Tennessee Anti-
Slavery Alliance. This approach ensures that quality, 
consistent trauma-informed services are provided statewide in 
the most effective and efficient way possible and that victims 
don't fall between the cracks.
    Thank you for this opportunity to address the committee, 
and I will welcome your questions later.
    [The prepared statement of Ms. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Winkler, you are recognized for 5 minutes.

                   STATEMENT OF RUSS WINKLER

    Mr. Winkler. Thank you.
    Chairman Blackburn, Ranking Member Doyle, members of the 
subcommittee, thank you for inviting me today. I am a special 
agent in charge with the Tennessee Bureau of Investigation and 
co-director of the Tennessee Fusion Center. One of my 
responsibilities is to oversee human sex trafficking 
investigations.
    Since 2011, thanks to our general assembly, our Governor, 
and my boss, TBI Director Mark Gwyn, we have been given better 
tools to combat this disgusting crime. We are proud that, this 
year, Tennessee ranked number one on Shared Hope 
International's State report card, and that is due in large 
part to the sustained focus of our State leadership.
    As I sit here talking with you, I am overseeing 66 active 
human sex trafficking investigations with minor victims in big 
cities and small towns across Tennessee. In most of these 
cases, a sex trafficking perpetrator takes a child and forces, 
threatens, or coerces her--the victim is nearly always female--
to engage in sex acts for money. In our experience, most cases 
involved the posting of ads for underage sex on Backpage.com, 
though Backpage is not the only site.
    To identify people seeking to engage in commercial sex acts 
with underage females, we use young-appearing female law 
enforcement officers to post ads online offering sex acts. We 
seed these ads with terms like ``new to town'' that are code in 
that environment for underage females. The undercover agents 
establish that they are under 18 in phone and text 
conversations with potential johns. All have been men so far in 
our investigations.
    Numerous men are not deterred by their juvenile status and 
eventually show up at the hotels, where we set up encounters 
with undercover agents. The agents meet with the men in a hotel 
room and, again, engage in conversation that proves that the 
offenders think that they are underage. Money is given to the 
undercover agents, and the men are promptly approached by 
uniformed law enforcement officers, who are waiting in the next 
room.
    For us, this is, unfortunately, a routine operation. The 
demand is staggering, and we know we are not unique among 
States. Our most recent undercover operation in a Nashville 
suburb resulted in 21 men being apprehended over a 3-day period 
when they came to a hotel room to engage in sex acts with 
undercover female agents who they believed were juveniles.
    To target traffickers of underage girls, we use male 
undercover TBI agents posing as johns. Our undercovers respond 
to advertisements that our Fusion Center intelligence analysts 
find on Backpage.com. Our analysts use advanced software called 
Spotlight to help identify ads that have a strong likelihood of 
being minors.
    Rescuing victims of human sex trafficking is a priority for 
us. We have established strong cooperative relationships with 
nonprofit organizations and our State child protective services 
agency. The nonprofit organization End Slavery Tennessee is 
sometimes on site during our operations. They offer services 
immediately on scene to women who come to the hotels answering 
Backpage ads.
    We have conducted operations and investigations involving 
numerous perpetrators and victims. The one constant we 
encounter in our investigations is the use of online platforms 
like Backpage.com by buyers and sellers of underage sex.
    Before I close, I want to point out that human sex 
trafficking cases offer another example of a crime that is 
enabled through emerging communications technologies. Victims 
are marketed on sites like Backpage.com, and traffickers and 
johns often use anonymous smartphone applications to facilitate 
and hide their negotiations over these children. This creates 
unique law enforcement challenges, which are sometimes referred 
to as ``going dark'' challenges.
    So, while we need tools to discourage online platforms from 
facilitating commerce in children, it is clear that we also 
need a legal framework that ensures law enforcement can get the 
additional evidence we need to investigate these horrible 
crimes.
    I appreciate the invitation to testify today and look 
forward to your questions.
    [The prepared statement of Mr. Winkler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mrs. Blackburn. Thank you.
    The gentleman yields back.
    Mr. Goldman, you are recognized for 5 minutes.

                   STATEMENT OF ERIC GOLDMAN

    Mr. Goldman. Thank you.
    Chairman Blackburn, Ranking Member Doyle, and members of 
the subcommittee, I applaud the efforts of Congress and this 
subcommittee to combat the horrible crime of sex trafficking. 
These efforts include the Allow States and Victims to Fight 
Online Sex Trafficking Act of 2017, called FOSTA.
    I defer to experts in the sex trafficking victim advocacy 
community about whether FOSTA would help victims. Based on my 
expertise in internet law, I will discuss FOSTA's implications 
for 47 U.S.C. 230, the law that Congress enacted in 1996 that 
says websites aren't liable for third-party content.
    Section 230 ranks as one of Congress' most important policy 
achievements in the last quarter-century. Section 230 touches 
deeply each of our lives by enabling the internet services we 
rely upon every waking hour. It also advances free speech by 
helping ordinary people communicate with a global audience for 
the first time in history. Furthermore, Section 230 improves 
marketplace efficiency across our entire economy and reduces 
entry barriers so that new and innovative online services can 
keep emerging.
    Section 230 is a globally unique policy. No other country 
provides such strong protections for online publishers of 
third-party content. This differentiation gives the United 
States a global competitive advantage for such services, which 
has helped create enormous social value here in the United 
States.
    Congress enacted section 230 in response to a 1995 ruling 
that an online service could be liable for user content because 
it had removed other objectionable content. The ruling created 
a dilemma for all online services that moderate user content. 
Online services had to choose between two strategies: one, 
exercise full editorial control over user content and accept 
liability for whatever legally problematic content they miss; 
or, two, minimize potential liability by exercising no 
editorial control over user content.
    Some services can't afford to exercise full editorial 
control. Other services, such as tools for real-time 
communications, can't function with full editorial control. 
Thus, if failing to moderate content perfectly leads to 
liability, some online services will abandon efforts to 
moderate user content or even shut down.
    Section 230 eliminated this moderator's dilemma. Section 
230 applies regardless of what online services do to moderate 
content or even what they know about user content. This means 
online services can deploy and experiment with a wide range of 
content moderation techniques without fearing liability for 
what they miss. This helps online services, but it also helps 
people access publication tools that let them reach new 
audiences.
    FOSTA would reinstate the moderator's dilemma. For the 
first time in over 2 decades, it would cause online services to 
question whether they should moderate content. Some services 
will conclude that it is too risky to do so. If online services 
reduce or eliminate their moderation efforts, FOSTA may 
counterproductively cause a net increase in sex trafficking 
promotion and all other types of antisocial content.
    Section 230 does not give a free pass to online services 
facilitating sex trafficking. Section 230 does not limit 
Federal criminal prosecutions, and the Department of Justice 
has prosecuted online services for publishing third-party ads, 
including at least two prosecutions against services, MyRedBook 
and Rentboy, that facilitated online prostitution. Furthermore, 
in the 2015 SAVE Act, Congress criminalized online advertising 
of sex trafficking, and a Phoenix grand jury has been 
investigating Backpage.
    Congress can balance additional anti-sex-trafficking 
initiatives with section 230's benefits by: one, ensuring that 
online services face only a single Federal standard of 
liability rather than State-by-State variations that will make 
it difficult or impossible for online services to determine 
what law applies to them; two, encouraging online services to 
continue performing socially valuable content moderation 
efforts by basing liability on an online service's intent to 
facilitate illegal activities, not on what it knows, and 
expressly saying that online services shall not be legally 
penalized for their moderation efforts. I oppose FOSTA because 
it does not to conform to either principle.
    Thank you for the opportunity to address the subcommittee 
on this very important matter.
    [The prepared statement of Mr. Goldman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mrs. Blackburn. Thank you, Mr. Goldman.
    The gentleman yields back. That concludes our testimony.
    At this time, I have several documents to enter for the 
record: Shared Hope International, Exodus Cry, the National 
Center on Sexual Exploitation, and the Coalition Against 
Trafficking in Women submit a statement. We have a letter from 
Shared Hope International; an article from The Register-Guard; 
a letter written April 3, 2012, that Ms. Maloney and I did to 
Google, Larry Page of Google, questioning Backpage, so we have 
been working on this for quite a while; and then a letter 
submitted and testimony from Mr. Chris Cox, partner from Morgan 
Lewis, and he is the outside counsel for NetChoice.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. So let's begin our questions.
    And, Mr. Winkler, I want to come to you to begin. You 
referenced the sting that you had conducted, and we all know 
that that made headlines, of course, in Tennessee but also 
around the country. And we have looked at how Tennessee is 
number one in Shared Hope International's study.
    And what I would like to hear from you and I think everyone 
on this panel, Democrat and Republican, would like to hear from 
you, what do you think has made the difference in Tennessee? 
What do you use most within the law? What would you like to see 
changed?
    The partnership--Ms. Smith, you may want to weigh in on 
this--but you are doing something different. You are getting 
results.
    And I would like for you to begin, Mr. Winkler, and then, 
Ms. Smith, for you to add to his answer.
    Mr. Winkler. Yes, Chairman. I think that the continued 
commitment by the general assembly and the Governor and the TBI 
director to support human trafficking investigations and our 
partnerships across the State with the nonprofit organizations 
and our partnership with our State's child protective services 
agency, all those things combined have been a tremendous help 
in Tennessee.
    A lot of emphasis has been placed on enhancements in the 
law to make it more punishable for both buyers and sellers of 
sex acts with juveniles. And I think that all those things 
combined is what has really helped us in Tennessee combat this 
problem.
    Mrs. Blackburn. OK.
    Ms. Smith?
    Ms. Smith. I agree. I think it takes all parts of the 
puzzle working together. So you have to have law enforcement, 
legislature, the courts, child protective services, and service 
providers all working together communicating and collaborating 
together. I think that is something we do very well.
    Law enforcement does work we can't do--investigate, 
prosecute the perpetrators, rescue. We can bring a survivor and 
an advocate perspective so that they can work in a trauma-
informed way. We can bring survivors on the scene at those 
stings to build trust and transfer that trust to law 
enforcement so they are a lot more likely to cooperate. And if 
you don't have services in place for the victims, they are not 
going to stick around to make a good case. So everything 
intersects together.
    Mrs. Blackburn. Let me ask you this. How are you all 
working in educating healthcare professionals?
    Ms. Smith. We actually, right now, are working with one of 
the large hospital systems. They have been working with us for 
about a year to create training for all of their staff 
nationwide. We are doing a beta rollout now in our region to 
train everybody from ER staffs to the receptionists at clinics.
    And we have a protocol in place so that they have a trauma-
informed response. So they know to call the hotline number, 
they know the protocol for service provision, for mandatory 
reporting.
    And then, in our case, we bring survivors on the scene from 
our staff to be there immediately to build their trust and to 
offer them services.
    Mrs. Blackburn. OK.
    I want to go to you, Ms. Souras and Ms. Smith. I did some 
reading in preparation for the hearing and looking at who is 
kind of the target victim for this, and many times it seems as 
if it is young girls who are in State or foster care custody, 
if you will.
    And I would like for you--we will begin with you, Ms. 
Souras, and then to Ms. Smith--to just talk about how these 
perpetrators of the crime go about targeting these victims, and 
then add if there is anything you think we could do 
differently.
    Ms. Souras. Absolutely. Thank you, Chairman Blackburn.
    You are absolutely right that the location of the child 
often has great bearing on whether they were vulnerable to 
being exploited.
    NCMEC really views child sex trafficking victims as a 
missing-child problem. In our experience, and as an example, 
just last year, in 2016, one of six runaways reported to us 
were likely sex trafficking victims, and, of those, 86 percent 
were running from State care. So definite correlations between 
children who were running away and also where they are running 
away from and, again, their ultimate vulnerabilities.
    In our experience, the average victim is a girl, even 
though there are boys and LGBTQ youth, of course, who are 
trafficked as well. But, again, average victim is a girl about 
15\1/2\ years old. Between 15 and 17 is the general age range 
we see.
    And, typically, these are children who are really 
experiencing an array of vulnerabilities. They are looking for 
something. It might be a parental figure. It might be love or 
affection, someone to care about them. You know, we often talk 
about children who are seeking, really, human basic 
requirements--safety, security, shelter. These are children 
who, you know, are not receiving that in their current home or 
social services setting. So they are very susceptible to false 
promises, false promises of love, shelter, again, security--
very basic needs. And that really is how they are lured.
    These are children who are, you know, often seeking just 
the smallest remnant of kindness from someone, so the smallest 
extension of that from a trafficker. And traffickers know who 
to extend that to and what that child might be looking for. 
That is often enough, just, again, for them to feel like 
someone has done something kind for them or something to care 
about for them.
    Mrs. Blackburn. Ms. Smith?
    Ms. Smith. I ditto that 100 percent.
    And I will say that foster care and the State custody 
system is a perfect pool for exploitation, because you have 
those children who are vulnerable. And we know lots of girls 
who were actually recruited within the system, out of group 
homes. There would be somebody who was recruiting on behalf of 
a trafficker.
    It is a system that sets things up for exploitation because 
these girls learn, ``Oh, I have a family who gets paid to take 
care of me.'' That kind of mentality can transfer to a 
trafficker. ``Well, he is going to take care of me, and it is 
reasonable that he is getting money to do so.''
    And I think I would add, though, that there is such a thing 
as familial trafficking. There are family members who traffic 
their children for money for drugs, usually, or for alcohol. 
And so, in that State system, when we are dealing with child 
services, there needs to be a track that is identifying those 
children and that is giving them the kind of specialized care 
that they need. They can't just be lumped in with the truants 
and the runaways and the unruly children. There needs to be a 
track that quickly gets them into the services they need.
    Mrs. Blackburn. Thank you.
    My time has expired, and at this time I yield to Mr. Doyle, 
5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    Mr. Goldman, in your testimony, you mention two ways you 
believe that Congress can achieve a balanced solution: first, 
by avoiding a patchwork of State laws, which websites would 
have to comply; and then, secondly, by targeting a website's 
intent to facilitate illegal activities.
    I wonder, have you seen Mr. Goodlatte's proposed amendment 
to Mrs. Wagner's legislation that involves targeting the 
facilitation of prostitution with a specific intent standard 
and carving out State criminal laws that would do the same 
thing? Would such a proposal serve that purpose of balance?
    Mr. Goldman. I have seen the proposed legislation, and I do 
think that the effort to focus on the specific intent to 
facilitate prostitution is a productive way of approaching the 
issue. And I consider it to be superior than the alternatives 
that I have seen.
    Mr. Doyle. You know, I want to again applaud the good work 
of the Senate Permanent Subcommittee on Investigations because 
they bringing the details of this issue in focus. And after 
reading their staff report, it is clear that Backpage.com not 
only profited from online sex trafficking but that Backpage.com 
also helped to develop content for online sex traffickers.
    Now, Professor Goldman, it is my understanding that section 
230 does not protect the website when it develops content in 
this way. So could you explain for us where the courts have 
drawn the line between developing content which is not 
protected and allowing third-party posts, which is?
    Mr. Goldman. The statute excludes anyone--it is protection 
for anyone who creates or develops content in whole or in part. 
So someone who develops content in part is not covered by the 
statute per its terms.
    In my opinion, the courts have interpreted that to really 
say that the party doesn't qualify for the section 230 immunity 
if they develop what is illegal about the content. And so there 
is a nexus between developing the content and developing what 
made it illegal. And I think that that is a helpful guidance 
for us to think about.
    Mr. Doyle. So if the facts that were laid out in the Senate 
report are true, do you think Backpage.com can continue to use 
section 230 as a shield?
    Mr. Goldman. I must say that the facts have raised a lot of 
questions about exactly how we interpret the statutory 
language, and I am eager to see what the courts end up doing 
with the facts that they have.
    Certainly, in Backpage's case, we have a lot of suspicion 
about the legitimacy of their motives. But some of what they 
were doing are common tactics on the internet, and we need to 
make sure that whatever happens to Backpage doesn't also create 
problems for the other sites that might be doing similar things 
but with a much less pernicious objective.
    Mr. Doyle. Mrs. Wagner's SAVE Act was recently passed into 
law. And can you tell us what tools this legislation gives law 
enforcement in pursuing sites like Backpage and how prosecutors 
and their investigators are starting to utilize it in their 
investigation?
    And maybe you and Mr. Winkler could respond to that.
    Mr. Goldman. So the SAVE Act criminalized knowingly 
advertising sex trafficking. And that is a new crime that did 
not exist, So it did cover some new area that had not been 
covered by any other crime.
    That law was just passed in 2015. I don't know what the 
typical turnaround times are for new crimes being enacted and 
the actual usage of them. So it is fairly early in the 
development of that particular law to gauge whether or not it 
has been effective.
    We do know that there is a grand jury investigation that 
has been investigating Backpage in Phoenix. We don't know what 
is going on in the grand jury investigation because that is a 
black box to us; it takes place under the cloak of secrecy. But 
it would be logical to me that the SAVE Act would be one of the 
grounds on which the DOJ has asked the grand jury to 
investigate Backpage.
    Mr. Doyle. Mr. Winkler, have you been able to utilize that 
act in any of your investigations or prosecutions?
    Mr. Winkler. No, sir. I am not familiar with the details of 
that. But did you have a question, too, about Spotlight, or did 
I misunderstand?
    Mr. Doyle. No, I didn't.
    Mr. Winkler. OK. Well, I am not familiar with that act, 
sir.
    Mr. Doyle. OK. Thank you.
    Madam Chair, I will yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Guthrie, 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman.
    So I was sitting here just listening, and Ms. Smith 
described how quickly girls or ladies were transferred from 
Atlanta to Nashville and set up--I think you said as easy as 
ordering a slice of pizza. And Mr. Winkler commented 
specifically on the online platforms and the difficulty it has 
had in trying to deal with this.
    And I know section 230 was passed in 1996 through a 
Republican Congress, through this committee. But when you hear 
the stories of what is coming out of this, it has to be 
addressed--absolutely has to be addressed.
    And, Mr. Goldman, when Mr. Doyle asked you about the 
Goodlatte amendment, I noticed you said it is superior to the 
current bill, but do you think it is acceptable and something 
you would like to see passed into law?
    Mr. Goldman. Personally, I would favor waiting to see how 
the developments play out in the courts. There are a number of 
developments taking place right now that are very germane to 
what we are discussing.
    For example, just on Tuesday, a Backpage challenge against 
the Missouri attorney general investigation was dismissed, in 
part with the court noting that section 230 may not protect 
Backpage and that would not be the grounds to hold back the 
Missouri AG investigation.
    So we know right now things are taking place, and my 
preference would be to see how that plays out.
    Mr. Guthrie. So there is no amendment acceptable? You would 
rather this legislation sit until some court makes a decision?
    Mr. Goldman. I think that----
    Mr. Guthrie. Or do you have something that would be 
acceptable now?
    Because the issue is, we hear that a lot in Congress. The 
legislative branch, we do things, and we will let the court 
clarify, we will let them move forward, you know. In my 
personal opinion, it is our job to do that. If we know there is 
a problem that needs to be out there, we don't need to wait, 
``Well, let's see what a court decision is going to do,'' if we 
can clarify that ourselves. I think that is what the American 
people expect.
    And so is there not anything we could do now that you would 
find acceptable that might address the problem, or do you think 
we should just wait on a court?
    Mr. Goldman. Yes--no, I respect that, that the whole reason 
why we are here is because you are in the position to take 
advantage of the tools that you have to solve the problems that 
you see.
    I think that the best call is to let the existing law that 
Congress enacted in 2015 and all the other laws that Congress 
passed play out. If we are going to pursue legislation--like 
you said, that is what Congress does--I do think that the two 
principles I mentioned would be the guiding principles for how 
I would consider legislation to be acceptable.
    Mr. Guthrie. Thanks.
    On another topic, Ms. Souras, the Missouri attorney 
general, in your testimony, you specifically said that one of 
the issues is the patchwork attorney generals are having to 
move forward. What is the issue with going State by State 
versus us addressing this? Why does it need to be addressed 
here instead of waiting for a State-by-State attorney generals 
process?
    Ms. Souras. Thank you, Representative Guthrie.
    What we really have seen over the past few years is more or 
less a complete foreclosure on the State attorneys general in 
their ability to protect children from trafficking in their own 
States.
    And I will point to the California attorney general's 
investigation and subsequent attempts to prosecute Backpage not 
once but twice on pimping charges over the past, I believe, 2 
years. After a very long investigation into Backpage, pimping 
and, you know, other related charges were filed against 
Backpage in the Sacramento Superior Court by the State attorney 
general's office. The court dismissed all of the pimping 
charges based on the broad interpretation of the CDA.
    Just before Attorney General Kamala Harris moved to the 
Senate at the end of 2016, she had her office refile those 
pimping charges with some additional facts developed to try to 
answer to the court's last order. And the judge, the new judge, 
in the second case, again dismissed the pimping charges, again 
based on the Communications Decency Act.
    So what we have at this point and what we have heard from 
the courts, including the courts in California, is really that 
Congress needs to clarify that State attorneys general can join 
this battle, that they can join Federal prosecutors. I know you 
didn't ask about civil remedies and civil attorneys, but it is 
the same in that realm as well. Currently, State attorneys 
general simply do not have the ability to get around the CDA.
    Mr. Guthrie. Thank you.
    And I have been to NCMEC, and I actually have a bill that 
has passed the House and hopefully reauthorizing NCMEC as we go 
forward. And I was going to ask you a question about that, but 
I will save that. I am running out of time.
    Just to say, what your people in that building go through 
every day, we are blessed as Americans to have people willing 
to do that kind of work. It is disturbing to see, but we have 
people there doing it. And I am sure, Ms. Smith, you are seeing 
the same; Mr. Winkler, the same thing. And it is really good 
that we have people on the front lines trying to combat this. 
And we need to give them the tools. We need to be judicious, 
but we also need to give them the tools available to do it.
    And thank you for being here.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. Well, I thank the chairwoman, and I thank the 
witnesses today. This is a difficult subject and something that 
needs to be done. It is urgent.
    Ms. Souras, in 2015, Congress passed the Stop Advertising 
Victims of Exploitation, or the SAVE Act. Do you think the SAVE 
Act has been effective in giving prosecutors the tools to bring 
down sites like Backpage.com?
    Ms. Souras. Thank you for the opportunity to address that. 
And I will, you know, piggyback a little bit on what Mr. 
Goldman said. He did explain that the SAVE Act was enacted at 
the end of 2015. It basically added advertising as one of the 
new predicate acts that one could commit under the Federal 
trafficking statute.
    One thing that is very important, though, to take into 
account is that the statute was enacted at the end of 2015. 
Backpage immediately filed court papers in the Federal court 
here in the District of Columbia to basically enjoin that 
statute, saying that it was unconstitutional. They filed suit 
against the Department of Justice. That case was not resolved 
until October of 2016.
    So, even though it may feel as though the law has been 
around for a couple of years and no one has used it, I would, 
you know, provide a bit of a counter view on that and say the 
law has really only been available to prosecutors out from 
under the specter of what that court's decision might have been 
for just about a year, which simply is not a long time when you 
think of a Federal investigation to be teed up and pursued.
    Mr. McNerney. And I was going to ask you, first of all, are 
we clear of courts possibly overturning the SAVE Act at this 
point? Is the SAVE Act safe, you know, in legislative/judicial 
terms?
    Ms. Souras. Well, it was a curious decision that the DC 
District Court issued. They did not actually address the 
substance of the constitutionality issue. They actually found 
that Backpage did not have appropriate standing, and they ruled 
on ancillary issues. So one could view that act as still being 
susceptible, if it were used in a prosecution, to 
constitutionality arguments.
    Mr. McNerney. Well, do you think that the Congress needs to 
examine whether Federal prosecutors and investigators have 
sufficient resources to combat online sex trafficking?
    Ms. Souras. So I think that is always a valid measure. You 
know, certainly at NCMEC we have such close partnerships with 
Federal and State law enforcement, and we, you know, always are 
encouraged by discussions around offering them more resources. 
But what I would--what I would suggest is that what Federal 
prosecutors need is not necessarily more resources or new laws; 
they need more players on their team. And by that I mean State 
attorneys general and civil attorneys as well.
    Mr. McNerney. That was my next question. Does the Goodlatte 
amendment allow State prosecutors to go ahead and prosecute 
cases as long as they comply with Federal requirements?
    Ms. Souras. So the language that I have seen, which I 
understand is very much in flux and has shifted again, I 
believe, since I saw a draft of it, permits that in extremely 
limited ways, and I would argue much more limited than the 
current FOSTA bill or the Senate bill, SESTA.
    Mr. McNerney. Thank you.
    Professor Goldman, thanks for coming out here from the bay 
area. I want to make sure I understand a few things about 
section 230. Does section 230 prohibit Federal law enforcement 
from going after websites that host advertisements for sex 
trafficking?
    Mr. Goldman. No.
    Mr. McNerney. Does section 230 protect individuals that 
actively engage in sex trafficking?
    Mr. Goldman. No.
    Mr. McNerney. In your written testimony, you state that 
section 230 ranks as one of Congress' most important policy 
achievements in the past 25 years, a quarter century. What 
makes that section so important? What gives it the teeth that 
it has?
    Mr. Goldman. It becomes the infrastructure for the entire 
internet ecosystem, which itself is infrastructure for our 
entire society. So the one little thing it does, saying 
publishers aren't liable for third-party content, creates this 
vast array of activity that wouldn't exist for any other reason 
except for the internet and its enablement through section 230.
    Mr. McNerney. What would the world--or the internet world--
what would the internet look like without 230?
    Mr. Goldman. Well, we have some examples about that because 
we see what it looks like in other countries. And they don't 
have the same kind of robust user to user interactivity that we 
have here in the United States. If they have it, it is because 
it is provided by companies based here in the U.S.
    Mr. McNerney. So basically 230 is doing what it is supposed 
to do, and we may not need to amend it until we find out if it 
is effective as we hope it is?
    Mr. Goldman. Section 230 is a very powerful statute, and so 
amendments to it have potential for very dramatic effects.
    Mr. McNerney. Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Olson, 5 minutes.
    Mr. Olson. I thank my friend from Tennessee from the bottom 
of my heart for having this important hearing. Modern-day 
slavery happens all over America, as Mrs. Wagner said in the 
first panel. It happens in my hometown of Sugar Land, Texas. 
Slavery for sex and labor. It is ugly, offensive, but it is 
real.
    It is so offensive and so ugly that some law enforcement 
people back home say it doesn't exist. But it does. In April 
2016, back home, a high school senior, very attractive, 
disappeared at night working at a local gym 500 yards from my 
official office in the heart of Sugar Land. She had just turned 
18, so she was a legal adult. Her father knew that, unless he 
found her in 30 days, she would likely be gone forever.
    Luckily, he had resources to hire former Special Forces, 
SEALs, Green Berets, reinforced recon, and put a full-on 
onslaught on social media. He got her back. That situation had 
been planned for 2 years. She befriended the so-called groomer 
when she was 16. He used Snapchat to communicate with her to 
give her drugs, get her hooked, and keep that from her parents. 
That family was lucky; they got their daughter back. And so was 
my family.
    Last June, my daughter went to South Africa on an overseas 
study program with her college. She went to Durban, South 
Africa. No one told us that was a hot bed for human 
trafficking. The students had to walk about half a mile from 
the dormitory to the classroom. In the middle of a bright sunny 
day, 2 p.m., four-lane road, center divider, a car pulled up in 
front of my daughter and her new friend. Three large men jumped 
out. One had a pistol in his left hand. My daughter saw the 
pistol. That man grabbed her shoulder, tried to take her in 
that car. Luckily, she had her backpack hanging with one strap 
on her right shoulder, the one he grabbed. The backpack came 
off. That gave her new friend the time to grab her right arm 
and pull her away.
    They ran as fast as they ever could. My daughter said: I 
was waiting to hear gunshots and being shot and dying in South 
Africa.
    Luckily, God was with her. They got to safety, and she came 
home. But she came home different. Those thugs took my 
daughter's innocence and trust. And it is a pain that will 
never ever go away from my family.
    As I mentioned, especially with the girl from the gym, sex 
traffickers use emerging technologies to help them obtain an 
advantage and to stay hidden from law enforcement and families. 
As I mentioned, Snapchat, an example, a 6-second video pops up, 
pops away. Bitcoin for online transactions.
    My question for the entire panel--I will start with you, 
Ms. Smith--if I can make you the king, the queen, for one day 
to end human trafficking, what would you do?
    Ms. Smith. I only have 5 minutes.
    Mr. Olson. I can take whatever the chairman gives me.
    Ms. Smith. First, let me say, my heart goes out to you. I 
sit across from parents with some regularity who didn't have an 
almost, whose children were trafficked, and it is one of the 
hardest things in my job to do. So I am glad your story was an 
almost.
    From my perspective, I see the devastation in lives of 
young girls, primarily girls. I see, even after they come out 
of trafficking, the fear they have that their images are still 
up online, and who might find them and who might see them, and 
parents have those fears, too, when there are parents involved. 
And even looking ahead, as we are trying to help them heal, 
they are worried about whether their employer is going to see 
those someday or their children or their potential spouse. So 
they are just tentacles that go out in this technology.
    So I think you have alluded to some of those things. The 
anonymity, the ease of the marketplace, has to be shut down. We 
can't--you know, I heard somebody tell me this story: If you 
take it out of the internet and you say, ``In that hotel over 
there, we are going to have children being raped and sold so 
that we can go and, you know, find them, use them as live 
bait,'' so to speak, we would be appalled. But we are OK with 
doing that if it is on the internet; somehow that is different.
    So we have got to have mandatory privacy controls. As long 
as we don't have those privacy controls, predators are going to 
exploit our children. Children are going to lie about their 
ages to get accounts. So we have got to have that. We have got 
to get rid of the anonymity. I am a big believer in free speech 
but not in letting people rape our children. That is a 
simplistic answer, but----
    Mr. Olson. And I am out of time.
    I yield back. But one final comment. Those guys are so bad 
with Snapchat. They would send this young girl, ``OK, the drugs 
are on the car tire in the school parking lot on the fifth car 
that is a red Impala on the back rear tire.'' That would pop up 
for 6 seconds and then pop away; you can't track it. They are 
devils. Absolute evil devils. And thank God put you to stop 
this thing. It has to stop--has to, has to, has to stop. My 
daughter was lucky. She came home. But, as you mentioned, most 
daughters aren't that lucky. They don't come home. And that is 
terrible, terrible, terrible. Thank you for coming today.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    Thank you to all the witnesses that are here today. A 
special welcome to Professor Goldman from home, from Santa 
Clara University, that we are all very proud of. Professor 
Goldman, when I read the reports about Backpage.com, I was 
really just absolutely disgusted by their business model. I 
think we need to be enforcing the law, obviously, to the 
fullest extent, when it comes to websites that are promoting 
sex trafficking.
    But with that in mind, I want to clarify something about 
section 230. And I read your testimony, and much of it is 
centered in and around section 230. Under that section, does 
anything stop the Department of Justice from bringing a 
criminal case against sites like Backpage.com, and are there 
other ways besides civil cases that victims can seek redress? 
That is my first question.
    Mr. Goldman. The first question--the first part is, no, 
nothing would restrict the Department of Justice from bringing 
an enforcement action against anyone, Backpage or any of the 
other sites that have been referenced.
    Ms. Eshoo. Have they?
    Mr. Goldman. We have the grand jury investigation that has 
been taking place in Phoenix, and we don't know what the result 
of that is because of the nature of the grand jury 
investigation. It seems safe to say that Backpage surely is on 
their radar screen, but how that translates into a prosecution 
decision is beyond my expertise.
    Ms. Eshoo. You don't know that yet. Uh-huh. Can you make 
any suggestions to us about how websites and tech companies can 
take it upon themselves to be proactive and find other ways to 
be proactive about fighting sex trafficking? Isn't that what 
230 civil immunity is designed to incent?
    Mr. Goldman. Yes, it does. And I liked how Ms. Smith 
referenced it. It does take a partnership of all the players to 
combat sex trafficking. We need everybody on the fight, 
including the technology companies. And to get their 
willingness to undertake initiatives requires that they aren't 
held accountable for making mistakes or for not being 
instantaneous in their response or for the other kinds of 
things that are natural in an environment where users are 
posting lots and lots of content.
    So section 230 is an integral part of the solution by 
making sure that we have provided the kind of legal framework 
that motivates the companies to do the work that we want them 
to do.
    Ms. Eshoo. Thank you.
    The bill that our colleague came to testify on is obviously 
intended to reduce the placement of antisocial content, like 
sex trafficking ads, online. But could, in your view, it be 
counterproductive, in other words, increase the appearance of 
such content? I mean, can you explain in the little more detail 
how that would work?
    Mr. Goldman. Yes. And I appreciate the opportunity to 
clarify that because it is counterintuitive. You would think 
that if we banned content and made more people liable for them, 
we will get less of the objectionable content. But that assumes 
that the existing services continue to do the work that they 
are already doing. But if we change the liability structure on 
them, they might decide that the best choice for them is to do 
less of the kind of policing and moderation work that we 
already are counting upon.
    So, while we might be able to take care of some players by 
driving them out of existence, we might also create other 
players who choose to do little or none of the work that we 
expect them to do. And if that is the result, if those players 
turn off their policing efforts, then they create more 
environments where the antisocial content can occur.
    Ms. Eshoo. That is very interesting. Do you know of any 
examples where online services have used the flexibility 
granted by 230 to help combat online sex trafficking or similar 
crimes and, if so, how effective these efforts have been?
    Mr. Goldman. I don't have the details on that. In fact, 
some of my copanelists here might actually have more 
information on that.
    Ms. Eshoo. Mr. Souras, do you know?
    Ms. Souras. Yes, absolutely. You know, from NCMEC's 
perspective, we can certainly attest to the tremendous value 
that our technology partners provide, especially in the child 
sexual exploitation or child pornography realm. The 
developments of tools, hashing, the ability to utilize very 
advanced analytical comparisons and connections between images 
and data and video has definitely not only increased our report 
load tremendously at NCMEC, but it means that more and more 
content relating to child sexual exploitation has been reported 
to us. That work in the bulk of it came after the mandatory 
statute was put into place requiring technology companies to 
report apparent child pornography to NCMEC.
    Ms. Eshoo. Thank you.
    My time has expired, and I yield back.
    Thank you to the witnesses very much.
    Mrs. Blackburn. We thank the gentlelady.
    Mr. Bilirakis, 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair.
    I appreciate it very much. Thank you for holding the 
hearing, and I appreciate the testimony of the panel. And, of 
course, Mrs. Wagner is doing an outstanding job on this issue. 
I am glad to see this is her priority.
    I have a couple questions, but in response to increased sex 
trafficking around the world and in the Tampa Bay area--I 
represent the Tampa Bay area or parts of it in Florida--our 
local leaders established the Pasco County Commission on Human 
Trafficking in 2014. Over the last 3 years, the commission has 
helped to educate over 500,000 Floridians, trained over 3,000 
community members, and saved many victims from their captors.
    Recently, the commission held its first meeting to 
specifically address online sex trafficking. Partnering with 
local universities and the Pasco County Sheriff's Office, they 
are gathering data on local online trafficking networks in the 
Tampa Bay area, and it is a big problem in our area.
    So my question is--my first question is to Ms. Smith. Based 
on your experience, what recommendations do you have for 
communities around the country that are beginning to target the 
online aspects of sex trafficking? And are there experienced 
organizations they should reach out to as they move forward?
    Ms. Smith. Well, I applaud you for the efforts in your home 
State. I think that a lot of people are well-intentioned and go 
in and just have knee-jerk reactions. So it is important that 
there be a professional approach to this, as with any other, so 
that there is a needs assessment that you have the 
professionals in place who are best qualified to address each 
of the components of your--of the problem you are tackling, 
whether that is internet or not.
    You need the kind of collaboration that we talked about in 
our State, where legislators are getting educated, law 
enforcement is getting educated, the courts; where there is a 
unified system where people are talking to each other and not 
at crossroads; where you are defining what your issues are, and 
not comparing apples and oranges. There is some foundational 
work that I think you have to do around the issue of 
trafficking before you can even move to the online aspects.
    I think it is important that you have survivor voices who 
are talking about the ways that they were trafficked and the 
effects on their lives and their concerns, the legal issues 
that they are facing. But I think some of my colleagues here 
might be even better in a position to----
    Mr. Bilirakis. OK. Sure.
    Ms. Souras, would you like to begin?
    Ms. Souras. Yes, thank you.
    I certainly agree with everything Ms. Smith related. I 
think--you know, one of the things that is important, and NCMEC 
always says this, is that sex trafficking is a multifaceted 
problem; it requires a multifaceted solution. So certainly the 
community awareness and the use and the listening to survivors 
and what they have gone through and the use of peer-counseling. 
And, again, learning from and using the experiences of those 
who have gone through this so that we can learn how to better 
educate on prevention and awareness and signs of trafficking to 
everyone that comes into contact with children, in addition to 
the judicial system and the healthcare system as well.
    Mr. Bilirakis. We have got to beat this together. It has 
got to be a collaborative effort, there is no question. I wish 
everyone could respond, but I want to move on to my next 
question because I don't have very much time.
    While technology has been a facilitator to traffickers, it 
also has put innovation into to the hands of law enforcement. 
Mr. Winkler, you mentioned your use of the Spotlight software 
to help identify traffickers in a crowd of online posts. Can 
you expand on how this technology works and its success for the 
Bureau, as it might benefit our commission on human trafficking 
as they begin online monitoring for this illegal behavior?
    Mr. Winkler. Yes, sir. My understanding of Spotlight is it 
is an algorithm or overlay that looks for ads that are posted 
online, where there is a strong likelihood that those ads have 
been posted by minors or somebody has posted minors for--or 
posted ads for minors. It is a tremendous tool for us in law 
enforcement. Our intelligence analysts and our agents who are 
assigned to conduct human trafficking investigations use that 
tool almost on a daily basis in an effort to identify human 
trafficking victims.
    So any type of technology like Spotlight that would help us 
in the furtherance of our investigations and in the furtherance 
of our efforts to combat human sex trafficking would certainly 
be welcome.
    Mr. Bilirakis. Thank you.
    Thank you, Madam Chair.
    I want to thank the witnesses for their, obviously, 
participating today and protecting our Nation's vulnerable 
population. We really appreciate it. And I encourage Tampa Bay 
residents to visit KNOW--and, again, spelled K-N-O-W--MORE 
PASCO, know more information, KNOW MORE PASCO, on Facebook or 
Twitter to learn more about what the community is doing to 
combat these predators.
    Thank you very much. And I thank my community for taking 
action. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. I certainly want to thank you, Madam Chairman, 
for your courage in terms of having this hearing, and I want to 
commend you for your work and leadership in this particular 
matter. Child exploitation is pandemic through this Nation and 
is indeed a seedy dark side of our culture.
    And I want to see from a different perspective how--what 
role does child marriage play in this crime? It seems as though 
there is another aspect of this crime that really has not been 
discussed at all, and that is for child marriages to occur.
    Do you find or can you speak to this issue at all? Anybody? 
I mentioned something--I have some legislation that I am 
addressing to deal with the language of standards for our 
Nation to have as it relates to child marriages. There are so 
many different standards State by State. So we are trying to 
create a common standard through legislation. Do you have any--
can you respond at all? Anybody? All right. Well, let me----
    Ms. Smith. I am sorry. I am getting older and hard of 
hearing, so I may have missed some parts of that. You were 
asking about child marriage and----
    Mr. Rush. I am asking about child marriages.
    Ms. Smith [continuing]. And trafficking. I would say that 
we have had limited experience with that. It is typically a 
foreign national victim. We do have a current survivor we are 
serving who was sold at the age of 14 to be married, and her 
husband brought her here and trafficked her. It was just an out 
and out trafficking situation. She managed to escape, and we 
are providing her services.
    But in the years in which I have worked here--I did work 
internationally and came across that issue quite a bit--but 
domestically, it is a relatively small percentage.
    Mr. Rush. Well, I have heard and some of our researchers 
have said in some parts of our Nation, it is very common that 
young girls particularly are forced into marriages in order to 
satisfy the laws that prohibit interstate transfer of minors 
for sexual exploitation. So child marriage is an issue in 
certain parts of our Nation.
    Let me ask you another question. Is there--have you 
noticed, is there a racial component to sexual exploitation of 
youngsters? Is there a racial component?
    Ms. Smith. I don't have those figures at my--those at my 
fingertip. I would be happy to get the information and send it 
to you later. I do know that there is a higher percentage of 
African-American victims. We certainly see lots of Latina, but 
I am sorry; I don't have the percentages, and I don't believe 
any of us probably do.
    Mr. Rush. All right. We, in recent days, have been highly 
focused on sexual harassment in the workplace and also in 
professional settings. And it seems as though there is a 
predominance in the news today and in recent days about sexual 
exploitation and harassment in the workplace and in 
professional settings.
    How is this affecting our national focus on children who, 
in most instances, are far less powerful and are more 
vulnerable because they are more voiceless? Are you seeing--are 
you seeing any kind of lessening of the attention on child 
sexual harassment because of the predominance in the news on 
harassment in the workplace and in professional settings?
    Ms. Souras. Congressman, what we handle in NCMEC is 
obviously a much more severe type of child sexual exploitation. 
But, you know, I will say I think the public attention, the 
media counts, as you noted, around this issue, do create an 
environment for additional discussion that we can have with our 
children, with vulnerable populations.
    Again, just regarding communication, being open to 
reporting. We are seeing some of these same trends with adults 
in professional settings. I think perhaps it is too early to 
know how that might filter down into some of the vulnerable 
populations that we work with here.
    Mr. Rush. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Long, 5 minutes.
    Mr. Long. Thank you, Madam Chairman.
    This is a tough hearing to sit through. And what is the 
rate, or do you have any statistics on the rate of recidivism? 
I mean, you are talking about mostly girls, let's say, that are 
in this--I know there are some LGBTQ, whatever--but mostly 
girls that are trafficked. And you say that they mostly come 
from State homes, correct? From the State system?
    Ms. Smith. [Nonverbal response.]
    Mr. Long. So Mr. Winkler goes up there and busts them with 
his program. Where do they go from there? I mean, they don't go 
to a house with a white picket fence and a dog in the yard and 
have apple pie that night. What--is there a recidivism? Do we 
know anything about that?
    Ms. Smith. I can just speak experientially from our State, 
and it depends on--if you are counting recidivism as returning 
to that life of exploitation?
    Mr. Long. Right. That is what I am asking. How do you break 
that cycle for that age group, for those people? I mean, not 
the next age group coming, or whatever, but how do you take 
them--you know, rescue them from that, which we all want to do? 
Then what happens?
    Ms. Smith. I think that we found a terrific model in our 
State. Currently, we have an 89-percent success rate for the 
people that we serve not going back into exploitation. I am not 
going to say it is not incredibly difficult. I believe I read 
that the national average is that a girl typically running runs 
back to exploitation seven times. Thankfully our rates are much 
lower than that.
    Mr. Long. Seven times?
    Ms. Smith. Seven times. You know, there is some--there is 
complex trauma going on here.
    Mr. Long. I know. I mean, that is part of the----
    Ms. Smith. But, thankfully, I think some of the reasons we 
have had success are we have survivors on staff who build that 
trust and who mentor, who show visibly: This does not have to 
define your life. I am a professional woman. I am married. I 
have children. I have a college degree. This does not have to 
define your life.
    That is a first step.
    I think the fact that we keep very small caseloads, because 
these girls typically are looking for relationships. They were 
exploited because they want love and acceptance, things all of 
us want, but they have that deep need. So you can provide 
services all day long, but if you don't build that community of 
other survivors that they live with and the support groups and 
the relationship with staff and starting to build their outside 
support system, they are going to go back to have that need met 
in the only way they have ever known.
    And I think those are keys to our success. I think it takes 
time. We can't rush this. We tend to do that. And especially 
child services: 2 months, 3 months, and that is all there is 
funding for.
    Mr. Long. Let me give each of you about 45 seconds to 
answer, start with Ms. Souras: What are the top three things we 
as Congress, two or three things, that we need to do to help 
you?
    Ms. Souras. I think the number one thing is really, quite 
honestly, the topic of this hearing. There need to be legal 
tools that can effectively break the commercial market, the 
commercial market that these girls run back to, as Ms. Smith 
indicated, that they are lured back into to be trafficked, and 
the same market that, again, is feeding between 9,000 and 
10,000 reports of child sex trafficking to NCMEC a year, and 
there is no decrease in those reports. Something at a high 
level needs to happen so that these websites can be taken down.
    Mr. Long. OK. Go ahead.
    Ms. Smith. I will just add with a little vignette: I have a 
15-year-old this week who just got her privileges back online, 
because we have a tiered system for that. And the same day she 
got those privileges, a 40-year-old man was reaching out to 
her. And she said, ``I am a minor,'' and he said, ``That is 
fine.'' We see that over and over again. So I just concur.
    Mr. Long. This Backpage.com or whatever it is, is this--I 
mean, I have heard of it a million times, but I have never 
looked at it. Is it--you buy bicycles and couches and 
refrigerators there, and then there is also a trafficking 
section, or how does it work? It is not all trafficking, right?
    Ms. Smith. No, it is not all trafficking, but it is hidden 
under euphemisms: Buy a girl for 40 roses. Everybody knows that 
means $40. It is very blatant. The pictures are very 
sexualized. There is not really much attempt to hide what is 
going on.
    Mr. Long. OK. Mr. Winkler.
    Mr. Winkler. Anything that encourages innovation in 
technology that would assist us in conducting the 
investigations that we conduct, that would assist us in 
furthering those investigations and helping us to identify 
trafficking victims, anything, whether that is targeted funding 
or just whatever, anything that you could do along those lines 
would be----
    Mr. Long. Mr. Goldman, I am over time, I am going to give 
you--I am going to yield myself 45 seconds that I don't have 
because I want to hear from you.
    Mr. Flores. I object.
    Mr. Goldman. I appreciate that. I do defer to the experts 
on this. I think if we could clone my three copanelists here, 
that would be a big step forward.
    Mr. Long. Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back and didn't use 
that 45 seconds he gave himself.
    Mr. Flores, you are recognized for 5 minutes.
    Mr. Flores. I hope that means I get 5\1/2\ minutes.
    Thank you, Madam Chair.
    And I want to thank the panel for being here today.
    And I have to echo Mr. Long's comments: This really is a 
sad hearing to go through this. But I do appreciate your being 
here to talk about this ugly blight on American society.
    Mr. Winkler, I want to follow up on one of the questions 
that Mr. Bilirakis introduced. He talked about your use of the 
tool Spotlight. And from what I understand now, as the 
trafficking business, if you will, is moving from text and 
photos to live streaming and video, it is my understanding that 
technology, the Spotlight types of technology, have not kept 
up. What sort of a challenge does that present to you?
    Mr. Winkler. I don't know specifically of challenges that 
we are faced with yet. I do know that there is a shift from the 
text format to video and streaming, and that it certainly is 
something that is on the horizon, if it is not already here.
    Like I said before, anything that you can do that would 
assist in fostering innovation in that area would be most 
helpful.
    Mr. Flores. I have to agree with you, I think that is one 
of the things that we as policymakers need to do, but not 
through legislation necessarily, but through encouragement, is 
to help get the best and brightest in Silicon Valley and 
throughout the technology ecosystem to help develop tools to 
help you stop this terrible crime that is being inflicted on 
our young people.
    Ms. Smith, I appreciate what you do. There is a group that 
started in Waco, Texas, called UnBound, and they do great work, 
and they deal with the victim side. And one of the neat things 
I have seen in our community is that they have brought law 
enforcement into the tent and have educated them about what is, 
I mean, what--these folks are victimized and what is happening 
to them. And they have formed a collaboration where Sheriff 
Parnell McNamara, the sheriff of McLennan County, has set up a 
sting system like the ones that you all talked about--like Mr. 
Winkler talked about. And, unfortunately, business is booming, 
but it is making a dent. From what I understand, the 
traffickers are no longer stopping in Waco, Texas, but that 
doesn't mean that they have gone away. They are just in other 
areas.
    So I want to continue with you, Ms. Smith. We have heard a 
lot today about the terrible consequences of how easily victims 
can be lured into sex trafficking, but we haven't talked a 
whole lot about what can be done to stop exploitation in the 
first place. So can you talk about your organization's 
prevention efforts and how technology can be used to stop 
exploitation before it starts?
    Ms. Smith. Great question. Thank you. We are doing a lot 
around prevention. We have reoccurring small groups facilitated 
by a therapist and a survivor with the high-risk kids, you 
know, interactive groups with middle-age--middle school and 
high school students. But I think when we are talking about 
prevention, what we have to be talking about is demand 
reduction. And so because TBI does what they do, in our State, 
if somebody picks up the phone to call for sex, they know on 
the other end of the phone might be law enforcement, whether 
they are in the city, the county, suburbs, small towns, 
wherever they are. They know that are laws are strong, and they 
know that their picture might go out on a press release, and 
their wife and their boss and the people they go to church with 
might see that. Those are strong deterrents.
    I know some sites--law enforcement sites actually put out 
the pictures so everybody can see. You know, that is the kind 
of thing we need to have happening if we are going to actually 
prevent this.
    And then we have just got to limit the marketplace, just as 
we have been talking about. As long as there is anonymity, as 
long as these exploiters can get by with what they are doing, 
prosecutors don't have the tools to go after them; law 
enforcement will lose motivation if there is not a legal 
process that works. That is what we really to have do, I 
believe.
    Mr. Flores. We have got about 30 seconds, but what can be 
done from a technology perspective, do you think, to help stop 
the exploitation? Do you have a feel for that? That was for 
you, Ms. Smith. I am sorry.
    Ms. Smith. I am sorry. Would you repeat----
    Mr. Flores. So what can be done from a technology 
standpoint to stop the exploitation?
    Ms. Smith. Well, you know, some of the things we have been 
talking about are the privacy controls, the anonymity that is 
allowed online. I think we haven't talked about the fact that 
there are new sites popping up constantly. It is hard to even 
keep track of them. I believe we need to have the resources to 
keep on top of that and what is being done. But also law 
enforcement needs the resources to be able to get what they 
need for making good cases and getting perpetrators.
    Mr. Flores. Again, thank you all for your testimony today.
    And I yield back the balance of my time.
    Mrs. Blackburn. Mrs. Walters, 5 minutes.
    Mrs. Walters. Thank you, Madam Chair.
    And thank you to our witnesses for being here today. It is 
deeply upsetting that these issues exist in today's society, 
but I am grateful for the opportunity to discuss how we can put 
an end to this modern day slavery. I have worked on human 
trafficking issues since I served in the California State 
legislature since 2004. And while we have taken steps to curb 
this horrific practice over the last 13 years, much, much more 
must be done.
    Trafficking is a big problem throughout California, as I am 
sure you are very aware. And a recent report by Polaris found 
that, in 2016, California had over 1,300 incidents of human 
trafficking, nearly double of any other State.
    This heat map that I have shows the cases in California 
that were reported to the National Human Trafficking Hotline. 
But this map is just part of the picture, because it only 
reflects cases in which the location of the potential 
trafficking was actually known.
    This year, in southern California, investigators have 
uncovered several large-scale international human trafficking 
rings that were using the internet to sell sexual services. And 
thousands of ads were tracked through the website that we are 
all familiar with, Backpage.com, including ads selling minors 
for commercial sex. Sadly, one of those rings was located in 
Irvine, which is right in the heart of my district.
    The problem is so bad in Orange County that a group of law 
enforcement departments, Government agencies, nonprofits, and 
community organizations banded together to establish a task 
force to conduct antitrafficking efforts. In 2015, the Orange 
County Human Trafficking Task Force assisted 225 victims. Of 
the 225 victims, 61 percent were new victims, 168 of those 
victims were used for sex trafficking, 48 of those victims were 
minors, 47 of whom were used for sex trafficking. And the stats 
go on and on.
    I am proud of the work that the task force has done and 
will continue to do so. With that, I would like to get to some 
questions.
    Ms. Smith, you mentioned in your testimony that when the 
Tennessee Bureau of Investigations began investigating human 
traffickers, they called on your group for assistance. Do you 
think State law enforcement agencies have the expertise and 
resources to combat this problem on their own?
    Ms. Smith. No, I believe it takes the expertise of a number 
of players working together. So law enforcement does things I 
wouldn't dream of doing, investigating, researching, 
prosecuting, but I think we have to work together to have an 
approach that doesn't frighten the victims away, that meets 
them where they are, that brings survivors to the operations, 
for example, to build that trust. We have to have the services 
in place to keep a victim in place long enough to prosecute.
    When I first started this work, I had a detective who said 
he was so frustrated with picking up the same 14-year-old girl 
all the time, and then he didn't know what to do with it. He 
lost his motivation. But now he is one of our most robust 
supporters because the system is working because all the pieces 
are in place. And so, you know, law enforcement is going out, 
and they are finding people. The community is getting educated 
so that they are being recognized by first responders. The 
services are in place that they need to heal. When that 
happens, it is a game changer.
    Mrs. Walters. So what you are saying is that different 
partnerships are being formed in order to have that 
communication in order to make it work?
    Ms. Smith. Absolutely.
    Mrs. Walters. And then, Professor Goldman, I have a couple 
questions for you. First, what evidence would a civil attorney 
need and expect to rely upon to establish that a website knew 
the individual advertised on the site was a minor?
    Mr. Goldman. I don't have an answer to that question in 
part because we haven't seen that issue thoroughly tested. 
Because section 230 doesn't turn on a website's knowledge, we 
are unclear how a different legal regime might interpret that 
information.
    Mrs. Walters. OK. We will see if you can answer my next 
question. I don't know if you will because, along the same 
lines, what evidence would a civil attorney need and expect to 
rely upon to establish that a website knew the individual 
advertised on the site was an adult sex trafficking victim?
    Mr. Goldman. Yes, I would answer it the same.
    Mrs. Walters. OK. Thank you.
    And I yield back the balance of my time.
    Mrs. Blackburn. Mr. Costello, you are recognized 5 minutes.
    Mr. Costello. Thank you.
    First, I want to thank the National Center for Missing and 
Exploited Children, who partnered with the FBI recently 
conducting their 11th Annual Operation Cross Country law 
enforcement action focused on recovering underage victims of 
sex trafficking. This cross-country sting was an operation, 
including 55 FBI field offices, 74 FBI-led child exploitation 
task forces, and 400 law enforcement agencies throughout the 
country, leading to the recovery of 84 sexually exploited 
minors and the arrests of 239 traffickers and other 
individuals, including 9 in my congressional district.
    Now, I understand why the CDA provided immunity to ISPs in 
the first instance. I think there is an intellectual 
appreciation for why that was the case. But I, like some others 
on this committee, I am sure--and I have met with a mother 
whose daughter was advertised. And when you hear what these ads 
are and what is said, it really hits you in a way that compels 
you to say that is simply not acceptable, and we need to create 
a standard by which an ISP and others can be liable, or they 
have more of a responsibility than has thus far been required 
of them.
    And so the question that I have is, can you talk about the 
successful efforts that were taken online during the operation 
and how, if at all, we can revise section 230 of the CDA to 
improve these efforts? I would point specifically to the 
reckless disregard standard that the information is in 
furtherance of a sex trafficking offense. I think that that is 
very helpful language in Mrs. Wagner's bill, as well as--and 
normally, we are a little hesitant to give State investigative 
authorities or State law enforcement jurisdiction over really 
internet-type related crimes because sometimes different States 
do different things at different times. But here, I think, by 
freeing it up and giving States more tools to do that, it is a 
good thing.
    So, Ms. Souras, and anyone else on the panel, can you speak 
to that collaboration between local and Federal law enforcement 
and how the proposal may best aid them in rooting this out even 
more effectively than we have been able to do?
    Ms. Souras. Thank you very much for the question, 
Congressman. And thank you for the recognition regarding the 
Operation Cross Country. It is an amazing operation that has 
been undertaken, as you noted, with a large variety of 
partners, local, State, and Federal. NCMEC provides some 
recovery services, as do local groups, in addition to some 
analytical support, and we are extremely proud to partner with 
law enforcement on that operation.
    I think what you see in that operation and the numbers that 
you quoted, especially the numbers from your State of 
Pennsylvania, are really indicative of the scope of the 
problem. There could be an Operation Cross Country every week, 
every month, and the numbers would be the same. You know, I 
will defer to Mr. Winkler, certainly, to how there can be 
better resources put in place for law enforcement. But the way 
to really provide assistance and to cut those numbers are--and 
I will just repeat a little bit of what I said before--are to 
take this on from the highest level, to realize that there is a 
commercial marketplace where these children are commodities. 
And that is why there are so many children who are recovered 
and rescued during Operation Cross Country. It is why they are 
lured back in--you know, I think what Ms. Smith said, some 
children seven, eight times. That is also similar to what we 
see at NCMEC, because somebody can make money off of them.
    And until we are able to introduce some laws--again, the 
FOSTA bill, you know, currently pending in the House; the SESTA 
bill that will soon be coming over to the House from the 
Senate, currently with 52 cosponsors in the Senate--most of 
those bills are, you know, approaching the issue from the same 
framework: adding more legal resources, State attorneys 
general, and civil remedies. That is really what you are going 
to start to see. You know, with new legal initiatives of that 
sort, that is going to be the solution to cut down on the 
number of children who are being lured because if it is too 
hard to break into the next Backpage, whatever that website 
might be--and Representative Wagner said there are hundreds. It 
is our experience as well, hundreds of----
    Mr. Costello. Real quick. How important is it for State and 
local prosecutors to be able to hold bad-actor websites 
accountable? How much more in the way of resources does that 
enable?
    Ms. Souras. It is a tremendous benefit. I mean, State 
attorneys general in every State, you know, I imagine will look 
at this issue. Many of them have spoken to NCMEC, and they 
simply can't proceed legally right now.
    Mr. Costello. Right. Thank you very much.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And seeing that there are no further members wishing to ask 
questions, we thank you all so much for the testimony that you 
have given today.
    As we conclude, I have two more submissions for the record. 
The opening statement of our ranking member, Frank Pallone. And 
an op-ed that I wrote this week that was printed in The 
Tennessean.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Pursuant to committee rules, I remind 
Members that they have 10 business days to submit additional 
questions for the record, and I ask, if they do and submit them 
to you, that you answer those questions within 10 business 
days.
    And seeing no further business to come before the committee 
and the fact that we are now being called to the floor for 
votes, I adjourn the subcommittee.
    So ordered. Thank you.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    While most of us spent this past holiday weekend with 
family and friends, victims of human trafficking and their 
families were forced to live a waking nightmare. Every day 
traffickers are forcing their victims-many of whom are 
children-to commit unspeakable acts. And while this practice 
seems like something from the ancient past, the situation is 
actually getting worse.
    According to the National Human Trafficking Hotline, human 
trafficking cases increased by more than a third between 2015 
and 2016. More than 2,300 of these cases last year involved 
trafficking children.
    Even though this is a global issue, those statistics are 
not from far-flung corners of the world. Criminal sex 
trafficking is getting worse here in the U.S. In New Jersey 
alone, we had 83 cases reported so far this year. And the 
actual number of cases is probably much higher than what gets 
reported as traffickers move their activity to hidden corners 
of the web.
    The internet undeniably has made the problem of sex 
trafficking worse. The same efficiency that can make the 
internet a powerful force for good in many ways can turn brutal 
when it is used in the sex trade. Some victims report 
traffickers forcing them to commit unspeakable acts 20 times a 
day. This simply should not be happening in this day and age. I 
salute my colleagues in both the House and Senate for proposing 
changes to existing laws to do more. Because more must be done.
    A number of bills have been introduced in both chambers to 
combat online sex trafficking. Most proposals would modify 
Section 230 of the Communications Act-also called the 
Communications Decency Act. That's the section of the law that 
exempts websites from civil liability for third-party content 
posted on their site. Unfortunately, certain rogue websites use 
that section of the law to escape paying for the damage caused 
by their contributions to human trafficking.
    I look forward to hearing today about which approaches work 
best to combat this terrible problem. And I welcome input on 
whether there are any ways to improve these proposals.
    I know that some people worry that these bills may have 
unintended consequences. They correctly point out that the 
Communications Decency Act has allowed the internet to thrive. 
It has allowed web companies to aggressively police their sites 
for harmful content without fear of legal repercussions.
    That's why the critics of altering the law worry that if we 
are not careful, we could undermine small businesses and 
unnecessarily harm startups that have nothing to do with human 
trafficking. Worse, they allege that if Congress does not act 
in the right way, we could unintentionally undermine the 
internet as we know it.
    I understand these concerns, and I take them seriously. But 
we cannot ignore the fact that people around the world are 
being harmed everyday by this trafficking. The consequences are 
too severe.
    That's why I welcome the help from the tech companies that 
have engaged productively in solving this issue and helping the 
victims. We all can and should do more. It's simply not 
acceptable to try to stop work on all legislation in the name 
of avoiding liability. We owe it to the victims. But more than 
that, we owe it to the people-adults and children-who will be 
victimized in the future if we do not act now.
    Thank you, I yield back.

              Prepared statement of Hon. David B. McKinley

    While the internet and e-commerce have revolutionized our 
lives in many ways, the staggering growth in this sector has 
allowed illicit activities to proliferate. Despite the majority 
of good actors online that are beneficial to the way we shop, 
communicate, and obtain information, we must pay more attention 
to companies and individuals involved in trafficking and 
smuggling of illegal goods and services. The rise of human 
trafficking and the online sex trade is a particularly 
abominable practice operating in the shadows--it is time for 
Congress and the Department of Justice to shine light on these 
bad actors to protect the victims of this industry from 
exploitation and enslavement. I commend the efforts of those 
testifying before the committee today and encourage Congress to 
continue working on legislative solutions that improve our 
ability to fight human trafficking and the sex trade. By 
modernizing our laws and enforcement power to reflect changing 
technology, we can better position the United States as leaders 
in the fight against these crimes against human dignity.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
